JVs.

20-1251

In The Supreme Court of
the United States
♦

Dr. Claud Anderson,
Petitioner
v.

The Harbor Bank Of
Maryland,
Respondent.

-♦

Petition For A Writ Of Certiorari
To The United States Court of Appeals
For The Fourth Circuit
Petition For A Writ of Certiorari
with Appendix

Dr. Claud Anderson
c/o PSC
341 S. Third Street, Suite 10
Columbus, Ohio 43215
cander4272@aol.com
301-897-9655 (T)
614-224-6529 (F)
Pro Se
February, 2021

^erneCoDrt, US'
FILED

FEB 26 2021
2ESSLQFTHECI FPu-

I.

QUESTIONS PRESENTED

Whether the decision of the United States
Court of Appeals for the Fourth Circuit in this matter
that a possessory lien on insurance proceeds
deposited into a deposit account
survives
notwithstanding deposit and commingling of the
proceeds with other funds , can be reconciled with
a contrary opinion reached in the United States
Eighth Appellate Circuit where it was determined in
WEB2B Payment Solutions, Inc. 2013 WL 1188041
(8th Cir. BA.P. March 25, 2013) that a bank's
possessory lien was overcome by a trustee's control of
the deposit account into which the funds were
placed.

i

II. PARTIES
Petitioner, Waterland Fisheries, Inc., Chief
Executive Officer, Dr. Claud Anderson, is a well
known author, lecturer and proponent of
redeveloping and industrializing Black communities.
Dr. Anderson is a former United States Marine. Dr.
Anderson served as State Coordinator of Education
for Governor Reuben Askew's administration in
Florida. Dr. Anderson also served as Assistant
Secretary for the United States Department of
Commerce where he headed the Costal Plains
Regional Commission during the administration of
President Jimmy Carter.
Dr. Anderson is the founder and majority
shareholder of Waterland Fisheries, Inc. ("WFI")
located in Hurlock, Maryland. WFI was purchased in
2007 with roughly one million dollars in capital
invested by Dr. Anderson. By reason of the events
described hereinbelow Dr. Anderson's entire personal
investment has been lost. Dr. Anderson filed a
Petition under Chapter 7 of the United States
Bankruptcy Code on June 22, 2015. Dr. Anderson is
the sole petitioner and no corporation nor corporate
entity are involved as petitioners in this case.
Respondent, Harbor Bank of Maryland, was
Waterland's senior lender, and a defendant in all
matters below.
n

III.

FEDERAL COURT PROCEEDINGS

United States Court of Appeals for the Fourth Circuit
No. 19-1770, Decided July 29, 2020
United States District Court for the District of
Maryland
Civil Action No. TDC-18-0977, Decided March 15,
2019

m

IV.

TABLE OF CONTENTS

I.

QUESTIONS PRESENTED

II.

PARTIES

III.

FEDERAL COURT PROCEEDINGS .. iii

IV.

TABLE OF CONTENTS

iv

V.

TABLE OF AUTHORITIES

vi

VI.

OPINIONS BELOW.

1

VII.

JURISDICTION

2

u

VIII. STATEMENT OF THE CASE
IX.

X.

1

3

REASON FOR GRANTING
THE PETITION...................

4

ARGUMENT IN SUPPORT

4

A.

4

INTRODUCTION

iv

B.

XI.

CONTROL OF WFI DEPOSIT
ACCOUNT...............................

6

C.

POSSESSORY LIEN

10

D.

PROCEEDS

12

CONCLUSION

15

APPENDIX
United States Court of Appeals
Fourth Circuit Filings:

for the

Per Curiam Judgment,
filed September 29, 2020

Al - A2

Per Curiam Decision,
filed July 29, 2020 . .

B1 -B3

United States District Court
District of Maryland Filings:
Decision, filed June 27, 2019
Decision, filed March, 2015

v

for the

Cl - C3
D1 - D30

V.

TABLE OF AUTHORITIES

Cases
Globe American Cas. Co. v. Chung,
76 Md. App. 524 (1988)

5

Paskow v. Calvert Fire Ins. Co.,
579 F.2d, 949 (5th Cir. 1978)

12

WEB2B Payment Solutions, Inc.
___B.R. 2013___ ,
2013 WL 1188041,
(8th Cir. B.A.P. March 25, 2013).... passim
Statutes
11 U.S.C. §523(a)(4)

5

11 U.S.C. §523(a)(6)

2, 3,5

11 U.S.C. §727(a)(2)(A)

5

28 U.S.C. §1254

2

vi

Other Authorities
Article 9 of the UCC

passim

“Good as Gold: Obtaining and
Retaining Perfected Security Interests
in Borrower Bank Accounts," American
Bankruptcy Institute, Deborah L.
Thorne, Barnes and Thornbar, LLP . .

9

“Lender's Security Interest in Casualty
Policy Proceeds.” Scott B. Osborne

12

“Secured
Lender’s
Loss
of
Possessory Lien Affirmed” The
Bankruptcy Strategist, Volume 30,
Number 9, July 2013........... !...............

8

vn

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully petitions for a writ of
certiorari to review the judgment of the United
States Court of Appeals for the Fourth Circuit.
VI.

OPINIONS BELOW

September 29, 2020 Per Curiam
Judgment Denying Rehearing and
Rehearing En Banc (Appendix A)
July 29, 2020 Per Curiam Decision of
the United States Court of Appeals for
the Fourth Circuit Affirming District
Court (Appendix B)
June 27, 2019 Decision of the United
States District Court for the District of
Maryland Denying Motion to Alter or
Amending Decision of March 15, 2019
(Appendix C)
March 15, 2019 Decision of the United
States District Court for the District of
Maryland Affirming Decision of United
States Bankruptcy Court (Appendix D)
1

VII.

JURISDICTION

The Order denying Rehearing and Rehearing
En Banc was entered on April 24, 2019. Jurisdiction
here is based on 28 U.S.C. 1254.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
11 U.S.C. §523(a)(6)
Section 523 - Exceptions to discharge
A discharge under section 727,
(a)
1141, 1192 1 1228(a), 1228(b), or 1328(b)
of this title does not discharge an
individual debtor from any debt-...
(6) for willful and malicious injury
by the debtor to another entity or
to the property of another entity;

2

VIII.

STATEMENT OF THE CASE

An Amended Complaint in Adversary Case No.
16-00002, the Harbor Bank of Maryland v. Dr. Claud
Anderson was filed January 30, 2017. On May 4,
2016, Case No. 16-00002 was consolidated with
Adversary No. 15-00685, State of Maryland
Agricultural & Resource Based Industry Development
Corporation (hereinafter "MARBIDCO") and State of
Maryland, Department of Commerce v. Dr. Claud
Anderson, Docket No. 28. An adversary trial was
conducted on March 20, 2017 and on March 28, 2017
through March 30, 2017, Docket No. 161, Case No.
15-00685.
A Memorandum of Decision and Opinion
entering judgment in favor of Harbor Bank of
Maryland on Count III of its Amended Complaint 11
U.S.C. §523 (a)(6) for willful and malicious injury by
the debtor to the property of another, and judgment
on behalf of Dr. Claud Anderson on all remaining
counts was entered on March 23, 2018.
On April 3, 2018, Dr. Claud Anderson timely
filed Notice of Appeal to the United States District
Court for the District of Maryland.
The district court entered a judgment in favor
of the Harbor Bank of Maryland on March 15, 2019.

3

The district court denied Petitioner's motion to alter
or amend on June 27, 2019. Petitioner filed a Notice of
Appeal on July 17, 2019.
On July 29, 2020 the Circuit Court affirmed the
district court. A Petition for Rehearing was denied on
September 29, 2020.
IX.

REASONS FOR GRANTING THE
PETITION

A CONFLICT EXISTS BETWEEN THE FOURTH
AND EIGHTH CIRCUITS CONCERNING
WHETHER THE DEPOSIT OF FUNDS INTO
DEPOSIT ACCOUNT STRIPS THE FUNDS OF A
POSSESSORY LIEN
X.
A.

ARGUMENT IN SUPPORT

INTRODUCTION

The central issue in this dispute, is whether the
exercise by a secured creditor, who is also the spouse
of the Debtor -Dr. Claud Anderson, of her rights under
Article 9 of the Uniform Commercial Code and a
demand note and security agreement that were fully
disclosed to all parties in advance of any loans being

4

made and timely documented and perfected through
UCC-1 filings in the Offices of both the Maryland and
Michigan Secretary of State, should be grounds for
denial of a discharge to the Debtor under 11 U.S.C.
§§523(a)(4) or (a)(6) or under 11 U.S.C. 727(a)(2)(A),
where the evidence establishes that casualty
insurance proceeds upon which the spouse secured
creditor foreclosed, were processed and deposited into
the insured's deposit account as required by Maryland
law.
The relevant insurance policy never identified
Harbor as named insured, loss payee, or mortgage, or
in any other capacity. Because Harbor were not
identified on the policy and, therefore, had no rights
under the policy, the insurance settlement check in
dispute was, correctly, never made payable to or
delivered to Harbor, but was deposited by counsel into
WFI's deposit account where it was required by
Maryland law to go. "The proceeds of an insurance
policy are to be distributed according to the precise
terms of the policy." See, Globe American Cas. Co. v.
Chung, 76 Md. App. 524, 532 (1988), vacated on other
grounds, 322 md. 713 (1991) This issue has been
conclusively decided by the Circuit Court of
Dorchester County. No argument advanced by
Harbor can overcome the fact that any status their
alleged lien on the insurance proceeds may have had

5

was stripped when the proceeds went into a deposit
account over which another secured creditor had
lawful control. For this reason, the Circuit court
should be reversed. There is no authority to support
the argument that once the proceeds reached the WFI
deposit account ,any lien by Harbor here, allegedly
arising under a non -UCC based agreement, such as
the deed of trust assignment or other loan document,
could overcome the superior right of possession of a
UCC- secured creditor, like Joann Anderson, with
control of the deposit account.
B.

CONTROL OF WFI DEPOSIT ACCOUNT

Harbor did not have control of WFI's deposit
account. Joann Anderson, a WFI secured creditor did
have control and was entitled to foreclose on funds in
the account.
The issue presented by Mrs. Anderson's
foreclosure however is not whether Harbor by virtue
of its right under a loss payable clause in an insurance
policy takes precedence over the claim of a perfected
security interest in the collateral that has been
damaged. Mrs. Anderson's right arises from her
control, within the meaning of Maryland Rule 9-104,
of Waterland's deposit account and the fact that funds

6

were placed into that account through the acts of
persons other than Mrs. Anderson or Dr. Anderson.
In other words, despite whatever character the
insurance proceeds had prior to being placed, through
no decision or action of Dr. Anderson, into WFI's
deposit account, once the proceeds were placed into
the deposit account, any lien held by Harbor or
another creditor became subordinate to Mrs.
Anderson by virtue of the Uniform Commercial Code.
This was determined to be the case in a nearly
analogous circumstance. WEB2B Payment Solutions,
Inc.
B.R. 2013
, 2013 WL 1188041, 5 (8th Cir.
B.A.P. March 25, 2013), where a bank's possessory
lien was overcome by the bankruptcy trustee's control
of a deposit account. The 8th Circuit panel who
addressed this precise question stated:
Section 9-314(a) of the Minnesota
version of the Uniform Commercial Code
("UCC") provides that "a security
interest in... deposit accounts ... may be
perfected by control of the collateral
under ... Section 9-104 " The filing of a
UCC financing statement will not
perfect a security interest in a deposit
account, See UCC § 9-312(b)(l) ("security
interest in a deposit account may be
perfected only by control"). UCC §
9-104(a) (1) further provides that "[a]

7

secured party has control of a deposit
account if " . the secured party is the
bank with which the deposit account is
maintained im
The Trustee conceded the Bank's
contractual security interest in the
account funds that "was perfected by
possession as of the [bankruptcy]
petition date." Id. Moreover, the Bank's
"lien survived the bankruptcy filing
itself Id. The only issue was "the effect
of the [Bank's] turnover" on its
possessory lien, Id.
Id.-, also see, "Secured Lender's Loss of Possessory
Lien Affirmed" The Bankruptcy Strategist, Volume
30, Number 9, July 2013.
The Maryland substantive law concerning
"control" is the same as Minnesota's.
Under Maryland law:
Perfection of Security Interests in Deposit
Accounts
A security interest in deposit accounts is
perfected so long as the secured creditor
has control of the bank account. Unlike
investment property including many
brokerage accounts, filing is not required
and is of no benefit unless the creditor
has control. Once control is lost,
however, the creditor's interest is no

8

longer perfected and may no longer exist.
§9-314. A creditor may establish control
in one of three ways: (1) automatically, if
the creditor is also the bank holding the
account; (2) pursuant to an account
control agreement by which the bank
agrees that it will follow instructions
given by the secured lender; or (3)
automatically, if the creditor holds the
bank account in its own name.
Importantly, an account control
agreement need not restrict the
borrower's ability funds in the account.
§9-314(h). Thus, "control" in this context
does not mean that the creditor must
have exclusive control of account funds
The creditor's ability to control the
account, not exclusive actual control, is
sufficient to prove control. §9-104(b),
Note that while this approach may work
to establish control and perfect the
interest in deposit accounts, it may not
be a practical way to retain control since
funds voluntarily removed from the
deposit account are outside the creditor's
control. Once outside the creditor's
control, the perfected security interest is
lost.
See, "Good as Gold: Obtaining and Retaining
Perfected Security Interests in Borrower Bank
Accounts," American Bankruptcy Institute, Deborah

9

L. Thorne, Barnes and Thornbar, LLP. Harbor's
Complaint does not address control of the WFI deposit
account. If it did it would be further evidence of the
invalidity of Harbor's Complaint. It is undisputed
that Joann Anderson had an agreement by which the
bank agreed to follow instructions given by Joann
Anderson. See, JA-1272. Joann Anderson was a
signer on the account. Under the signature card at
JA-1272.
United Bank agreed to follow the
instructions of Joann Anderson, among others.
C.

POSSESSORY LIEN

Just as the case here the U.S. Bankruptcy Appellate
Panel ("BAP") for the Eighth Circuit held on March
25, 2013, that a lender "lost its possessory lien when
it turned the Debtor's account funds over to the
Trustee without first seeking adequate protection." In
B.R. 2013
re WEB2B Payment Solutions, Inc.,
_____, 2013WL1188041, *5 (8th Cir. B.A.P. March 25,
2013) (emphasis added). Affirming the bankruptcy
court's granting of summary judgment to the trustee,
the BAP stressed that "a possessory lien is, by
definition, released when possession of the collateral
is relinquished." Id., at *3.
Section 9- 314(a) of the Minnesota version of the
Uniform Commercial Code ("UCC"),which is the same

10

as Maryland's, provides that "a security interest in . .
. deposit accounts . . . may be perfected by control of
the collateral under .. . Section 9-104 . .
The filing
of a UCC financing statement will not perfect a
security interest in a deposit account. See UCC §
9-312(b)(l) ("security interest in a deposit account
may be perfected only by control"). UCC § 9-104(a)(1)
further provides that "lal secured party has control of
a deposit account if. .. the secured party is the bank
with which the deposit account is maintained."
The critical fact in WEB2B was the Bank's
holding of a possessory lien which, "by definition,
released when possession of collateral was
relinquished." Id. at *4. In other words, the Bank
"voluntarily and affirmatively release [d] its lien by
operation of law when it relinquished possession." Id.
Unlike the secured lender in Whiting Pools, the Bank
here had no non-possessory statutory lien and no
other lien "perfected by the filing of a UCC-1...." Id.
The Bank's possessory lien in account funds is
essentially the same as a setoff right. As the BAP put
it, "in either situation the creditor's rights in funds
are lost when possession is given up." Id. In this case
since Joann Anderson had control of the deposit
account,Harbor's purported lien could not survive
placement of the fungible insurance proceeds into that
account.
11

D.

PROCEEDS

Under Maryland law, if a casualty policy has a
loss payable clause in favor of a lender, the lender has
a contractual right to receive the policy proceeds up to
the value of the lender's mortgage. See, Scott B.
Osborne, "Lender's Security Interest in Casualty
Policy Proceeds." Under certain circumstances, such
as those in the case of Waterland, the borrower has a
right to insist on application of these proceeds toward
reconstruction or improvements. See, Paskow v.
Calvert Fire Ins. Co., 579 F.2d, 949, 95 (5th Cir. 1978).
The lender's contractual right to receive policy
proceeds is not in the nature of a "security interest."
See, Osborne, supra. It is in the nature of a
contractual right to receive the proceeds.
Because the mortgagee has a contractual
right to money payable under the loss
payable clause, the mortgagor has no
right to that money. Thus the money or
right to receive the money is not
property or a right to property belonging
to the mortgagor. See, Paskow.
Simply stated, casualty policy proceeds belong
to the lender if, as here, the policy contains a
mortgagee loss payable clause. Id. However ,the

12

borrower also has a right to insist that the proceeds
are used to repair the property. Moreover, the lender
has a duty to assert its claim to the proceeds at the
time of distribution, which Harbor never did in this
case. None of this however is directly relevant to the
issue of whether Joann Anderson had a senior secured
interest in Waterland's deposit account. Control of a
deposit account is a UCC issue, not a contract issue.
It is critical to this analysis therefore that neither Dr.
nor Mrs. Anderson caused the insurance proceeds to
be placed into Waterland's deposit account. The funds
were required to be put into WFI's deposit account
under Maryland law and the Circuit Court for
Dorchester County has already decided that issue
against Harbor.
Insurance policies are specifically excluded
from the provisions of Article 9 of the UCC.
Sec 9-109(d) Inapplicability of Article.
This Article does not apply to:
(8) A transfer of an interest in or an
assignment of a claim under a policy of
insurance, other than an assignment by
or to a health-care provider of a
health-care-insurance receivable and
any subsequent assignment of the right
to payment, but 9-315 and 9-322 apply

13

with respect to proceeds and priorities in
proceeds;
It is not possible under the UCC to create or
perfect a security interest in a casualty insurance
policy. The only method of obtaining rights to
payment under a casualty insurance policy is to have
a contractual right to receive that payment under the
policy itself. See, Osborne.
The exception to this general statement arises
in the context of determining whether insurance
proceeds can constitute the "proceeds" of collateral.
The UCC has continued the treatment of insurance
payments as "proceeds" of personal property that were
otherwise subject to a perfected security interest. The
UCC makes it clear that it was possible to have a
security interest vis a vis the borrower in "proceeds"
arising from an insurance policy.

14

XI.

CONCLUSION

In view of the above arguments, it is
respectfully requested that a Writ of Certiorari issue.
February 25, 2021
Respectfully submitted,
s/Dr. Claud Anderson
Dr. Claud Anderson
do PSC
341 S. Third Street, Suite 10
Columbus, Ohio 43215
cander4272@aol .com
301-897-9655 (T)
614-224-6529 (F)
Pros Se

15

